Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 THE CORE MEDICAL SERVICES
  REQUIREMENT IN THE RYAN
      WHITE PROGRAM




                    Daniel R. Levinson
                     Inspector General

                      October 2009
                     OEI-07-08-00240
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                   S U M M A R Y


                  OBJECTIVE
                  1. To determine the extent to which Ryan White grantees expended
                     grant funds on core medical services, as required.

                  2. To describe effects of the core medical services requirement on
                     grantee operations.

                  3. To assess the Health Resources and Services Administration’s
                     (HRSA) guidance on and project officers’ oversight of the core
                     medical services requirement.


                  BACKGROUND
                  Enacted in 1990, the Ryan White CARE Act (the Act), as amended,
                  established the Ryan White program to provide funding to grantees to
                  develop, organize, coordinate, and operate effective and cost-efficient
                  health care and support services for people with HIV and AIDS.
                  Administered by HRSA, the Ryan White program had a budget of
                  $2.1 billion in 2008.

                  The Ryan White HIV/AIDS Treatment Modernization Act of 2006
                  changed how Ryan White funds may be used, emphasizing life-saving
                  and life-extending services for people living with HIV/AIDS. A key
                  change made by this law provided more funds for direct health care
                  services for Ryan White clients and established a requirement that
                  certain grantees spend at least 75 percent of awarded grant funds on
                  core medical services unless they receive waivers of this requirement.
                  The requirement went into effect in 2007. Section 703 of the law
                  repealed the entire Ryan White program effective October 1, 2009,
                  unless it is again reauthorized. In late 2009, Congress was holding
                  hearings on reauthorization of the program.

                  Ryan White grantees must submit financial and performance reports
                  throughout the grant period, and each grantee is assigned a HRSA
                  project officer to oversee and assist with the proper use of grant funds.

                  This evaluation is based on grantee interviews, grantee expenditure and
                  allocation information, project officer interviews, and a review of HRSA
                  guidance.




OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   i
E X E C U T I V E              S U     M M A R Y



                   FINDINGS
                   Almost all grantees complied with the core medical services
                   requirement; grantee expenditures for core medical services
                   changed little from 2006 to 2007. Ninety-six percent of Part A
                   grantees complied with the requirement in 2007, and 98 percent
                   allocated their grant funds in compliance with the requirement in 2008.
                   All Part B and Part C grantees were in compliance with the
                   requirement based on 2007 expenditure and 2008 allocation reports.
                   Even though grantee expenditures on core medical services changed
                   little from 2006 to 2007, 55 of the 92 grantees responding to the
                   question reported that they could better serve the goals of their
                   programs and meet the needs of their clients if more flexibility were
                   built into the requirement (e.g., more local control over funding, options
                   to adjust the percentage spent on core medical services). Additionally,
                   71 of the 121 grantees that responded to the question provided
                   suggestions for Congress to consider during the next reauthorization.
                   The core medical services requirement affected support services
                   and administrative processes for some grantees. When compared to
                   Part B and C grantees, a higher percentage of Part A grantees reported
                   that the core medical services requirement had a significant effect on
                   support services provided to their clients. When asked, 14 percent of all
                   grantees reported that the core medical services requirement increased
                   their administrative burden.
                   HRSA guidance was helpful, but project officer turnover created
                   program management difficulties. Of the 81 percent of grantees that
                   received guidance from HRSA, 95 percent found HRSA guidance helpful.
                   However, 71 percent of grantees reported experiencing project officer
                   turnover in recent years that created program management difficulties.
                   Further, OIG found that issues with project officer oversight continue to
                   cause vulnerabilities within the Ryan White program.


                   CONCLUSION
                   The Ryan White HIV/AIDS Treatment Modernization Act of 2006
                   emphasized providing funds for direct health care services for people
                   living with HIV/AIDS by establishing a requirement that certain
                   grantees spend at least 75 percent of their grant funds on core medical
                   services. OIG found that, overall, those grantees complied with the core
                   medical services requirement in 2007 and allocated their funds in
                   compliance with the requirement in 2008. There was little change in

 OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   ii
E X E C U T I V E              S U     M M A R Y


                   grantee spending on core medical services after the requirement went
                   into effect. However, some grantees reported that the core medical
                   services requirement affected their delivery of support services and
                   increased their administrative burden. Further, when asked, just over
                   half of the grantees we interviewed would welcome the opportunity to
                   provide input as Congress considers reauthorization of the Ryan White
                   program in 2009. Lastly, while over 90 percent of grantees found HRSA
                   guidance helpful, OIG found that project officer oversight continues to
                   be a vulnerabilty in the Ryan White program.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   HRSA concurred with our findings. Regarding the finding pertaining to
                   turnover among project officers affecting oversight of grantees, HRSA
                   further commented that it has lost a number of experienced project
                   officers in recent years, and is currently hiring new staff. HRSA also
                   noted that in response to the complex requirements mandated by the
                   Act, impending reauthorization of the Act, and the influx of new project
                   officers, it will be intensifying training in the coming weeks. We did not
                   make any changes in response to HRSA’s comments.




 OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8
                   Almost all grantees complied with the core medical services
                   requirement; grantee expenditures for core medical services
                   changed little from 2006 to 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   The core medical services requirement affected support services
                   and administrative processes for some grantees . . . . . . . . . . . . . . 10

                   HRSA guidance was helpful, but project officer turnover created
                   program management difficulties . . . . . . . . . . . . . . . . . . . . . . . . . 11


         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                   Agency Comments and Office of Inspector General Response . . . 14



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   A: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 15

                   B: Five Highest-Funded Core Medical Service Categories by
                      Grantee Type. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                   C: Grantee Ratings of the Difficulty of Implementing the Core
                      Medical Services Requirement . . . . . . . . . . . . . . . . . . . . . . . . . 19

                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the extent to which Ryan White grantees expended
                     grant funds on core medical services, as required.

                  2. To describe effects of the core medical services requirement on
                     grantee operations.

                  3. To assess the Health Resources and Services Administration’s
                     (HRSA) guidance on and project officers’ oversight of the core
                     medical services requirement.


                  BACKGROUND
                  Enacted in 1990, the Ryan White CARE Act (the Act), as amended,
                  established the Ryan White grant program to provide funding to
                  develop, organize, coordinate, and operate effective and cost-efficient
                  health care and support services to people with HIV and AIDS.
                  Administered by HRSA, the Ryan White program is the largest
                  federally funded program dedicated to providing services to people with
                  HIV/AIDS, with funding of $2.1 billion in 2008. 1 The Ryan White
                  program serves nearly half a million people annually.

                  The Ryan White HIV/AIDS Treatment Modernization Act of 2006, the
                  most recent reauthorization of the Ryan White program, changed how
                  Ryan White funds may be used, emphasizing life-saving and
                  life-extending services for people living with HIV/AIDS. A key change
                  made by this law established a requirement that certain grantees spend
                  at least 75 percent of awarded grant funds on core medical services
                  unless they receive waivers of this requirement. 2 Examples of core
                  medical services include outpatient health services, home health care,
                  mental health services, and medications. Section 703 of the law
                  repealed the entire Ryan White program effective October 1, 2009,
                  unless it is again reauthorized. 3 In late 2009, Congress was holding
                  hearings on reauthorization of the program.



                    1 HIV/AIDS Policy Fact Sheet, “The Ryan White Program.” The Henry J. Kaiser Family

                  Foundation, June 2008. Available online at http://hab.hrsa.gov/reports/funding.htm.
                  Accessed on June 30, 2009.
                    2 The 2006 reauthorization also renamed various Titles of the Act: Title I became Part A,
                  Title II became Part B, and Title III became Part C.
                    3 Ryan White HIV/AIDS Treatment Modernization Act of 2006, P.L. No. 109-415
                  (Dec. 19, 2006).



OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M          1
I N T R O D        U C T      I O N


                    The Act is divided into six parts, and the core medical services
                    requirement applies to funds provided under Parts A, B, and C; the
                    majority of Ryan White grant funds are allocated to these three parts.
                    Grants and grantees are referred to based on the part of the Act under
                    which their grants are awarded; for example, an organization receiving
                    a grant under Part A of the Act would be referred to as a Part A
                    grantee. Part A grants are awarded to metropolitan areas for
                    HIV-related services. Part B base grants, along with supplemental
                    funds, are awarded to States and Territories to improve the quality,
                    availability, and organization of health care and support services. 4
                    Finally, Part C Early Intervention Services (EIS) grants are made to
                    public and private nonprofit organizations to fund comprehensive
                    primary health care in an outpatient setting for people living with
                    HIV. 5
                    Core Medical Services Requirement
                    The 2006 reauthorization of the Act established a requirement that
                    Parts A, B, and C grantees spend at least 75 percent of their funds, after
                    deducting funds for administration and quality management services,
                    on core medical services (hereinafter referred to as the requirement). 6
                    Grantees may seek waivers of the requirement under circumstances
                    specified by statute.




                       4 Many of the supplemental funds associated with Part B grants are earmarked for the

                    AIDS Drug Assistance Program (ADAP). ADAP provides medications for the treatment of
                    HIV. States may also use ADAP program funds to purchase health insurance for eligible
                    clients and for services that enhance access to, adherence to, and monitoring of drug
                    treatments. HRSA, “Part B: Grants to States and Territories.” Available online at
                    http://www.hab.hrsa.gov/treatmentmodernization/partb.htm#ADAP. Accessed on
                    July 14, 2009.
                      5 Part C includes two categories of grants: EIS grants, which fund comprehensive
                    primary health care in an outpatient setting; and Planning and Capacity Development
                    grants, which support organizations in planning for service delivery and in building
                    capacity to provide services.
                      6 Sections 2604(c), 2612(b), 2620(e), and 2651(c) of the Act (42 U.S.C. §§ 300ff-14(c),
                    300ff-22(b), 300ff-29a(e), and 300ff-51(c)).



 OEI-07-08-00240    THE CORE MEDICAL SERVICES REQUIREMENT    IN THE   R YA N W H I T E P R O G R A M            2
I N T R O D        U C T       I O N


                    The requirement applies to the formula funding, most supplemental
                    funding, 7 and Minority AIDS Initiative (MAI) funding received by
                    Parts A, B, and C grantees. 8 The requirement also applies to most
                    funding awarded under Part C, including MAI grants. 9
                    The core medical services specified in the Act are:

                    • outpatient and ambulatory health services;
                    • pharmaceutical assistance, including medications provided through
                        ADAP;
                    •   oral health care;
                    •   early intervention services;
                    •   health insurance premium and cost-sharing assistance for
                        low-income individuals;
                    •   home health care;
                    •   medical nutrition therapy;
                    •   hospice services;
                    •   home and community-based health services;
                    •   mental health services;
                    •   outpatient substance abuse care; and
                    •   medical case management, including treatment adherence services. 10



                       7 The core medical services requirement does not apply to the supplemental grants
                    awarded under Part B for Emerging Communities. Section 2621 of the Act
                    (42 U.S.C. § 300ff-30a); “HRSA HIV Care Grant Program Part B Program Guidance, FY
                    2008,” p. 38 (November 30, 2007).
                        8 HRSA awards MAI grants to Parts A, B, C, D, and F grantees through a competitive
                    process. The goal of these grants is to reduce HIV-related health disparities among
                    minority populations. Section 2693 of the Act (42 U.S.C. § 300ff-121). When a Part A, B, or
                    C grantee receives MAI funding, the requirement applies to the total combined award.
                    HRSA Announcement No. 07-135, Part A Minority AIDS Initiative Grant Program,
                    “Application Guidance for New Competing Discretionary Grants, 2007.” HRSA
                    Announcement No. HRSA 5-H3M-08-001, Part A Minority AIDS Initiative Grant Program,
                    “Non-Competing Continuation Discretionary Grants, 2008.” HRSA Announcement No.
                    07-136, Part B Minority AIDS Initiative Grant Program, “Application Guidance for New
                    Competing Discretionary Grants, 2007.” HRSA Announcement No. HRSA 5-G24-08-001,
                    Part B Minority AIDS Initiative Grant Program, “Non-Competing Continuation
                    Discretionary Grants, 2008.”
                      9 Only Part C EIS grantees are subject to the core medical services requirement.
                    Hereinafter, we refer to Part C EIS grantees as simply Part C grantees. HRSA
                    Announcement No. 5-H76-07-002, “Ryan White Title III: Categorical Grant Program for
                    Outpatient EIS, Non-Competing Continuation Application, 2007.” HRSA Announcement
                    No. 5-H76-08-001, “Ryan White Part C (Title III): Categorical Grant Program for
                    Outpatient EIS, Non-Competing Continuation Application, 2008.”
                      10 Sections 2604(c)(3), 2612(b)(3), 2620(e), and 2651(c)(3) (42 U.S.C. §§ 300ff-14(c)(3),
                    300ff-22(b)(3), 300ff-29a(e), and 300ff-51(c)(3)).



 OEI-07-08-00240    THE CORE MEDICAL SERVICES REQUIREMENT    IN THE   R YA N W H I T E P R O G R A M              3
I N T R O D        U C T      I O N


                    Grantees may spend up to 25 percent of their Ryan White grant funds
                    on support services needed for individuals with HIV/AIDS to achieve
                    their desired medical outcomes (e.g., outreach, medical
                    transportation, linguistic services, respite care, and referrals for
                    health care and support services).
                    Grantees may apply on an annual basis for waivers, which allow them
                    to spend less than 75 percent of their Ryan White grant funds on core
                    medical services. To qualify for a waiver, there must be no ADAP
                    waiting list in the grantee’s State and core medical services must be
                    available to all individuals identified and eligible to receive services
                    under the Act. 11 Grantees applying for waivers in grant years 2007 and
                    2008 self-certified that they met these requirements. 12

                    According to HRSA, 5 of the 56 Part A grantees and 3 of the 59 Part B
                    grantees received waivers of the requirement for the 2007 funding cycle.
                    For the 2008 funding cycle, 5 of the 56 Part A grantees were granted
                    waivers, 3 of which also received waivers in 2007. No Part C grantees
                    have applied for waivers. To date, HRSA has approved all requests for
                    waivers.
                    HRSA Grantee Oversight
                    HRSA requires Ryan White grantees to submit reports throughout the
                    grant period, including performance reports and financial reports at the
                    end of each annual grant period. 13 HRSA also requires grantees to
                    submit a number of standardized reports annually on clients, services
                    provided, and expenditures. These reports are important for
                    determining grantees’ compliance with the requirement. 14
                    HRSA project officers have primary responsibility for overseeing
                    grantees. Each grantee is assigned a project officer to oversee and
                    assist with the proper use of grant funds. Project officers use grantees’


                      11 Sections 2604(c)(2), 2612(b)(2), 2620(e), and 2651(c)(2) (42 U.S.C. §§ 300ff-14(c)(2),
                    300ff-22(b)(2)), 300ff-29a(e), and 300ff-51(c)(2)). Some States have more people needing
                    medications than their ADAP funding can provide for; these States have had to institute
                    waiting lists of people needing medications.
                      12 FY 2007 Interim Waiver Eligibility Guidance; 72 Fed. Reg. 66181 (November 27,
                    2007); 73 Fed. Reg. 33097 (June 22, 2008).
                      13 Requirements for grantees to submit performance and financial reports are found at
                    45 CFR §§ 92.40(b)(1) and 92.41(b)(3) (for governmental grantees) and 45 CFR §§ 74.51(b)
                    and 74.52 (for nongovernmental grantees).
                      14 Grantees receiving ADAP funds must submit the quarterly ADAP report; MAI funds
                    are included on the allocation and expenditure reports.



 OEI-07-08-00240    THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M               4
I N T R O D        U C T      I O N


                    performance and financial reports to determine compliance with
                    spending requirements. Project officers also give feedback in response
                    to grantees’ reports, including acknowledging receipt of the documents,
                    providing clarifying information, and asking grantees to make any
                    necessary budget revisions.
                    Previous Office of Inspector General Work
                    A previous Office of Inspector General (OIG) report found that
                    53 percent of Titles I and II (now known as Parts A and B) Ryan White
                    expenditures in 1992 were for medical services and pharmaceuticals. 15
                    In 2004, an OIG report found that project officers were not adequately
                    monitoring the Ryan White grantees studied and that HRSA provided
                    little support to its project officers. 16 OIG made recommendations to
                    improve the monitoring of Ryan White grantees, including: specifying
                    and enforcing standards and guidelines for how project officers should
                    monitor grantees; addressing ongoing training for project officers;
                    standardizing a corrective action process and addressing grantee issues
                    more formally; increasing frequency and comprehensiveness of site
                    visits; and improving project officer continuity. HRSA agreed to make
                    changes in its monitoring of grantees in response to those
                    recommendations.

                    In May 2008, HRSA informed OIG that it had taken a variety of steps to
                    implement the recommendations. These steps included enhancing
                    training for project officers, developing a site visit protocol for onsite
                    monitoring, and increasing the number of grantee site visits.
                    Additionally, HRSA reported that it has consolidated its grants
                    management offices, relocated all Title II (Part B) monitoring
                    responsibilities from regional offices to headquarters, and redefined the
                    Office of Field Operations as the Office of Performance Review. 17


                    METHODOLOGY
                    We limited our grantee population for this study to grantees located in
                    the 50 States, the District of Columbia, and Puerto Rico. This


                      15 “The Ryan White Care Act: Fiscal Year (FY) 1992 Title I and Title II Expenditures,”
                    OEI-05-93-00331, April 1994.
                     16 “Monitoring of Ryan White CARE Act Title I and Title II Grantees,” OEI-02-01-00640,
                    March 2004.
                      17 “Compendium of Unimplemented Office of Inspector General Recommendations,”
                    Department of Health and Human Services OIG, May 2009, p. 87.



 OEI-07-08-00240    THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M            5
I N T R O D        U C T      I O N


                    population included all 56 Part A grantees, 52 of 59 Part B grantees,
                    and 361 of the 363 Part C grantees. Our sample consisted of all
                    56 Part A grantees, all 52 Part B grantees, and a simple random sample
                    of 90 of 361 Part C grantees. This study also included all
                    HRSA-identified project officers responsible for working with the Ryan
                    White Parts A, B, and C grantees. We requested responses to a
                    structured interview guide from all Part A, all Part B, and sampled
                    Part C grant officials through in-person interviews, telephone
                    interviews, or email. For all grantees included in this study, we
                    requested, in writing, the grantees’ expenditures for FYs 2006 and 2007
                    and their allocated expenditures for FY 2008. 18 We also sent an
                    electronic structured survey to all HRSA-identified project officers.
                    Additionally, we reviewed HRSA-developed guidance documents.
                    Grantee Interviews
                    We requested responses to a structured interview guide from all Part A,
                    all Part B, and sampled Part C grant officials responsible for
                    administering each of the Ryan White grants. In their responses,
                    grantees provided us with information regarding their experiences with
                    the core medical services requirement and any changes in operations
                    resulting from the requirement. Grantee responses also provided
                    information regarding why they did or did not apply for waivers and
                    about their guidance and oversight experiences with HRSA. Grantee
                    response rates were 98 percent for Part A grantees (55/56), 85 percent
                    for Part B grantees (44/52), and 80 percent for Part C grantees (72/90).
                    Grantee Expenditure and Allocation Report Review
                    We requested that all Part A, all Part B, and sampled Part C grant
                    officials complete a form to provide us with Ryan White grant
                    expenditures for 2006 and 2007 and allocated expenditures for 2008. 19
                    We analyzed the information provided to determine whether each
                    grantee complied with the requirement in 2007 and whether each
                    allocated at least 75 percent of its 2008 funds to core medical services,




                      18 We requested information on grantees’ total Ryan White funds, including their
                    Parts A, B, and C base grants and any supplemental funding, such as ADAP or MAI
                    funding they received in each year.
                      19 The grant year for Part A and Part C funds is March 1 to February 28; for
                    Part B funds, April 1 to March 31; and for Part F funds, August 1 to July 31. We requested
                    that grantees provide expenditures and allocations for the 2006, 2007, and 2008 grant years
                    for Parts A, B, and C grants.



 OEI-07-08-00240    THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M           6
I N T R O D        U C T        I O N


                    after deducting funds for administration and quality management. 20
                    We also analyzed the information provided to determine whether and
                    how grantee expenditures on core medical and support services changed
                    from 2006, prior to the implementation of the requirement, to 2007 and
                    2008. Rates of response to our request for grantee expenditures in 2006
                    and 2007 and allocated expenditures in 2008 varied among Part A,
                    Part B, and Part C grantees; see Table 1.
                    Table 1: Percentage of Grantees Responding to Requests for
                    Expenditure and Allocation Information

                                                                                              Allocation
                      Grantee Type          Expenditure Information                         Information
                                                      2006                 2007                             2008
                       Part A                          89.9                 98.2                            98.2
                       Part B                          86.5                 86.5                            86.5
                       Part C                          78.9                 81.1                            78.9
                      Source: OIG analysis of grantee expenditure and allocation information.



                    HRSA Project Officer Interviews and HRSA Guidance Review
                    We reviewed HRSA-developed guidance regarding Ryan White grant
                    requirements. We also requested responses to a structured interview
                    guide from all 42 HRSA Ryan White project officers for Parts A, B, and
                    C grants in early 2009. The interviews included questions about the
                    training and guidance project officers received, project officers’
                    interactions with grantees, project officers’ oversight of grantees,
                    implementation of the requirement, and waivers of the requirement.
                    The project officer interview response rate was 100 percent.
                    Limitations
                    This evaluation did not assess the accuracy of expenditure and
                    allocation information provided by grant officials. We also did not
                    determine grantees’ compliance with HRSA’s policies and practices used
                    to oversee grantees.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.


                      20 Because data collection occurred during FY 2008, final expenditure reports were not
                    yet available.



 OEI-07-08-00240    THE CORE MEDICAL SERVICES REQUIREMENT         IN THE   R YA N W H I T E P R O G R A M          7
Δ     F I N D I N G S

    Almost all grantees complied with the core              Overall, Parts A, B, and C
         medical services requirement; grantee              grantees collectively spent an
                                                            average of 93 percent of their
expenditures for core medical services changed
                                                            Ryan White grant funds on core
                        little from 2006 to 2007
                                                            medical services in 2007. Part A
                    grantees’ average spending on core medical services in 2007
                    and their allocated expenditures in 2008 were 82 percent. Part B and
                    Part C grantees each had average spending on core medical services in
                    2007 of 94 and 95 percent, respectively; their allocated expenditures for
                    core medical services in 2008 were both 94 percent. The five Part A and
                    three Part B grantees that received waivers of the requirement spent
                    between 54 and 99 percent of their grant funds on core medical services.
                    Point estimates and confidence intervals for selected statistics are
                    presented in Appendix A. Appendix B shows that the proportion of
                    funds devoted to core medical service categories changed little from
                    2006 to 2008.
                    Overall, Parts A, B, and C grantees complied with the core medical services
                    requirement in 2007 and 2008
                    Ninety-six percent of Part A grantees complied with the requirement in
                    2007, and 98 percent allocated their grant funds in compliance with the
                    requirement in 2008. The two grantees that did not have waivers and
                    spent less than 75 percent on core medical services in 2007 spent 71.0
                    and 73.9 percent, respectively. 21 At the time of our review, only one
                    grantee expected to spend less than 75 percent of its grant funds on core
                    medical services in 2008. 22 All Part B and Part C grantees were in
                    compliance with the requirement based on 2007 expenditure reports
                    and 2008 allocation reports. 23




                      21 These grantees reported that difficulties with midyear implementation and budget
                    changes contributed to their noncompliance with the requirement. HRSA project officers
                    reported that they anticipated that these two grantees would comply with the requirement
                    in 2008.
                      22 One Part A grantee allocated only 69.0 percent of its grant funds to the core medical
                    services in 2008. However, at the time of our data collection, 2008 final expenditure reports
                    were not due. Therefore, we cannot report how grantees actually spent their funds in 2008.
                      23 While all 71 responding Part C grantees were in compliance with the core medical
                    services requirement, we estimate with 95-percent statistical confidence that between
                    94.1 and 100 percent of all Part C grantees were in compliance in 2007 and between
                    95.9 and 100 percent of all Part C grantees were in compliance in 2008.



  OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M             8
F   I N D I N G        S


                      Parts A, B, and C grantees’ expenditures for core medical services changed
                      little from 2006 to 2007
                      Our analysis of grantees’ 2006 expenditures showed that they were
                      already spending a high proportion of their grant funds on core medical
                      services prior to implementation of the requirement. From 2006 to
                      2007, Part A grantees’ average spending on core medical services
                      changed from 74 percent to 82 percent, Part B grantees’ average
                      spending changed from 95 percent to 94 percent, and Part C grantees’
                      average spending remained at 95 percent. 24
                      Even though there was little change in grantee spending on core
                      medical services, 55 of the 92 grantees that responded to the question
                      reported that they could better serve the goals of their program and
                      meet the needs of their clients if more flexibility were built into the
                      requirement (e.g., more local control over funding, options to adjust the
                      percentage spent on core medical services). Further, when asked, 71 of
                      the 121 grantees that responded to the question provided suggestions
                      for Congress to consider during the next reauthorization. 25
                      The most common suggestions included: expanding the definitions of
                      the core medical service categories to include case management,
                      inpatient substance abuse treatment, and transportation; and seeking
                      provider and consumer input during the next reauthorization. One
                      grantee stated, “The distribution of funds formula should be
                      reconsidered, including those [living] with HIV as well as those
                      [diagnosed] with AIDS, as the trend of the epidemic is that people with
                      HIV are surviving and improving.” Another grantee offered that
                      “. . . during [the] last reauthorization, there was very little chance for
                      communities and consumers to provide input. [We] encourage Congress
                      to provide more opportunities for input from people who use and run the
                      program.”




                        24 These estimates are based on grantee-reported expenditure information.
                        25 Because of the low rates of response to these interview questions, we could not project
                      the number of grantees in the population that reported that they could better serve the
                      goals of their programs and meet the needs of their clients if more flexibility were built into
                      the requirement or that provided suggestions for Congress to consider during the next
                      reauthorization.



    OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT    IN THE   R YA N W H I T E P R O G R A M               9
F   I N D I N G        S




      The core medical services requirement affected              The circumstances of
      support services and administrative processes               individual grantees and
                                  for some grantees               their clients’ needs played a
                                                                  role in the degree to which
                      the requirement affected their programs. Part A grantees reported that
                      the requirement had a significant effect on the provision of support
                      services to their clients more often than Part B or C grantees. Although
                      Parts A, B, and C grantees rated implementing the requirement as
                      easy, they also indicated that the requirement and other changes
                      established in the reauthorization created additional burdens on
                      administrative practices.
                      The core medical services requirement affected the delivery of support
                      services for 27 percent of Part A grantees, 7 percent of Part B grantees, and
                      1 percent of Part C grantees
                      Twenty-seven percent of Part A grantees reported that the requirement
                      had a significant effect on support services provided to their clients,
                      compared to only 7 percent of Part B and 1 percent of Part C grantees.
                      Because the requirement imposed a minimum percentage for spending
                      on core medical services and a maximum percentage for spending on
                      support services, grantees that devoted a greater percentage of their
                      funds to support services either made greater changes to how they spent
                      their grant funds and the services they provided to clients or sought
                      waivers of the core medical services requirement.

                      One Part A grantee reported that the limitations placed on how Ryan
                      White funds could be spent reduced funding for transportation in their
                      rural area and caused clients difficulty in obtaining services, saying,
                      “Many support services are just as important as core [medical services]
                      in some ways. How can [a client] go to work when going to the doctor
                      takes all day on the bus?” Another grantee noted the lack of funds for
                      food assistance, saying, “Food is critical to [the] success of medications;
                      sometimes food banks don’t have food that patients can eat or that will
                      help them absorb their medications.” Finally, one grantee reported that
                      as a result of their own evaluation, they “found that these [support]
                      services were absolutely critical as part of health outcomes, which put a
                      lot more pressure on the county to provide [support] services.”




    OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   10
F   I N D I N G        S


                      The core medical services requirement increased the administrative burden
                      for 14 percent of all grantees
                      When we asked grantees to rate the degree of difficulty they
                      experienced with implementing the requirement on a 5-point scale,
                      where 1 indicated easiest and 5 indicated most difficult, the most
                      common rating was 1 (see Appendix C for further information on
                      grantees’ ratings). However, when we asked grantees whether the
                      requirement affected their administrative practices, 14 percent reported
                      that it increased their administrative burden. Examples of changes
                      made to administrative practices included: modifying program policies
                      and practices, changing strategic planning practices, allocating and
                      budgeting funds, reporting and tracking program expenditures,
                      renegotiating contracts with providers, and identifying additional
                      community resources.

                      Other changes established by the reauthorization also affected grantees’
                      administrative practices. For example, prior to the reauthorization,
                      MAI funds were applied for and disbursed in conjunction with Parts A,
                      B, and/or C grant funds; now these funds are applied for and disbursed
                      separately. 26 Grantees reported that these activities lessened their
                      focus on service delivery to clients. As one grantee stated, “We spend so
                      much time on reporting and completing grant applications that it leaves
                      little time to think about service delivery.”



HRSA guidance was helpful, but project officer               Eighty-one percent of Ryan White
      turnover created program management                    grantees reported receiving
                                                             guidance from HRSA on the
                                  difficulties
                                                             requirement, and 95 percent of
                      grantees that received guidance indicated that they found the guidance
                      helpful. However, grantees also reported that the turnover in and
                      limited experience of Ryan White project officers contributed to
                      inconsistent grantee oversight. Grantee and project officer responses
                      about the difficulties caused by turnover indicate that consistent
                      grantee monitoring by project officers continues to be a vulnerabilty

                         26 In a Government Accountability Office report on the implementation of the
                      requirements of the Act for MAI grants, HRSA officials said that they changed the MAI FY
                      for 2007 so that HRSA could complete the new guidance necessitated by the changes made
                      by the Act. The FY for MAI funding is from August 1 to July 31. “Ryan White Care Act:
                      Implementation of the New Minority AIDS Initiative Provisions,” GAO-09-315,
                      March 2009, p. 19.



    OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M       11
F   I N D I N G        S


                      within the Ryan White program, as previously identified in a 2004 OIG
                      report. 27
                      Eighty-one percent of grantees reported receiving guidance on the core
                      medical services requirement
                      According to grantees, HRSA provides guidance through written
                      materials, conference calls, and electronic mail, as well as in-person
                      meetings and telephone conversations with project officers. Of the
                      grantees that received guidance from HRSA, 95 percent found it helpful.
                      However, 21 percent of all grantees reported that some of the core
                      medical services’ definitions were unclear. Specifically, grantees
                      reported that the definitions of medical case management,
                      transportation, and early intervention services were unclear.
                      Thirty-eight percent of project officers confirmed that grantees seek
                      additional information and clarification on service definitions.
                      Turnover affects project officer oversight of grantees
                      At the time of our review, 71 percent of grantees reported experiencing
                      project officer turnover in recent years. Of these, 62 percent reported
                      that project officer turnover created program management difficulties.
                      Twenty-eight percent of the grantees that reported turnover said that
                      they have to repeatedly train project officers on both the Ryan White
                      program and the individual grantees’ unique organizations and
                      processes. Further, 26 percent of these grantees reported experiencing
                      varying project officer expectations, and 23 percent of grantees reported
                      a lack of consistency in project officer interactions. Grantees offered the
                      following comments about project officer turnover and oversight:

                      •    “In my 10 years, we have had eight project officers. Continuity is
                           an issue. We [the grantee] have to retrain them.”

                      •    “We have had three different project officers in the past year. Each
                           has had different expectations and . . . differing methods to monitor
                           [the] program.”

                      •    “[Project officer] turnover has occurred without notification, and
                           sometimes submissions [reports] appear to have been lost in the
                           shuffle.”




                       27 “Monitoring of Ryan White CARE Act Title I and Title II Grantees,” OEI-02-01-00640,
                      March 2004.



    OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M      12
F   I N D I N G        S


                      •    “Our new project officer has to consult with others constantly and
                           never makes decisions on her own. She is not familiar with the
                           program . . . her relative inexperience creates a lot of trouble.”

                      Project officers generally agreed with the grantees’ assessments of high
                      turnover within their ranks, explaining that HRSA has experienced
                      staffing shortages in the past few years. As HRSA project officers turn
                      over, grantees are reassigned among the available staff. Project officers
                      noted problems resulting from turnover similar to those that grantees
                      reported, including difficulties establishing relationships with grantees,
                      inconsistent project officer expectations of grantees, and differing
                      project officer approaches for grant oversight. Of the forty-two project
                      officers we interviewed, 21 reported that the frequent reassignment of
                      grantees affected their ability to effectively oversee their grantees.
                      Twenty-one project officers reported having no Ryan White experience
                      prior to becoming Ryan White project officers, and 31 reported having
                      no prior project officer experience. Further, 19 project officers also
                      reported that they came to their positions with limited prior experience
                      and had only recently joined HRSA.




    OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   13
F IO NN DC I L N U G S S I O
C                              N
Δ     C O N C L U S I O N




                     The Ryan White HIV/AIDS Treatment Modernization Act of 2006
                     emphasized providing funds for direct health care services for people
                     living with HIV/AIDS by establishing a requirement that certain
                     grantees spend at least 75 percent of their grant funds on core medical
                     services. OIG found that, overall, those grantees complied with the core
                     medical services requirement in 2007 and allocated their funds in
                     compliance with the requirement in 2008. Our analysis of grantees’
                     2006 expenditures showed that most grantees were already spending a
                     high proportion of their grant funds on core medical services in 2006,
                     prior to the implementation of the requirement. Therefore, there was
                     little change in grantee spending on core medical services since the
                     requirement went into effect.

                     Despite the small amount of change in spending, a higher percentage of
                     Part A grantees reported being affected by the core medical services
                     requirement in the delivery of support services, compared to Part B and
                     Part C grantees. Additionally, 14 percent of all grantees reported that
                     since implementation of the requirement, they have experienced an
                     increase in their administrative burden. Further, when asked, just over
                     half of the grantees we interviewed would welcome the opportunity to
                     provide input as Congress considers reauthorization of the Ryan White
                     program in 2009. Lastly, while 95 percent of the grantees who received
                     guidance from HRSA found it helpful, grantee and project officer
                     responses about the difficulties caused by turnover indicate that project
                     officer oversight continues to be a vulnerabilty in the Ryan White
                     program.


                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     HRSA concurred with our findings. Regarding the finding pertaining to
                     turnover among project officers affecting oversight of grantees, HRSA
                     further commented that it has lost a number of experienced project
                     officers in recent years, and is currently hiring new staff. HRSA also
                     noted that in response to the complex requirements mandated by the
                     Act, impending reauthorization of the Act, and the influx of new project
                     officers, it will be intensifying training in the coming weeks. We did not
                     make any changes in response to HRSA’s comments. For the full text of
                     HRSA’s comments, see Appendix D.


  OEI-07-08-00240    THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   14
                 Δ            A P P E N D I X                                 ~         A

                          Point Estimates and Confidence Intervals


                                                                                       Grantee            Sample                   Point         95% Confidence
  Statistic Description
                                                                                          Type              Size                Estimate               Interval*

  Estimates from expenditure and allocation reports
                                                                                             All             171                     92.9            92.0–93.7
  Average percentage of grantee funds expended on                                             A                 55                   81.7                    -
  core medical services in 2007                                                               B                 45                   93.5                    -
                                                                                              C                 71                   94.9            93.8–96.1
                                                                                             All             169                     93.3            92.5–94.2
  Average percentage of grantee funds allocated for                                           A               53                     81.5                    -
  core medical services in 2008                                                               B                 45                   93.9                    -
                                                                                              C                 71                   95.4            94.3–96.5
                                                                                              A                 55                   96.4                    -
  Grantees in compliance with the core medical
                                                                                              B                 45                 100.0                     -
  services requirement in 2007
                                                                                              C                 71                 100.0            94.9–100.0
                                                                                              A                 53                   98.1                    -
  Grantees in compliance with the core medical
                                                                                              B                 45                 100.0                     -
  services requirement in 2008
                                                                                              C                 71                 100.0            94.9–100.0
                                                                                              A                 50                   74.3                    -
  Average percentage of grantee funds expended on
                                                                                              B                 45                   95.0                    -
  core medical services in 2006
                                                                                              C                 70                   94.8            93.4–96.1
  Estimates from interview responses
                                                                                              A                 49                   26.5                    -
  Percentage of grantees reporting significant effects
                                                                                              B                 43                      7.0                  -
  on service delivery
                                                                                             C                71                       1.4             0.0–3.8
                                                                                             All             172                      13.5            8.9–18.2
  Percentage of grantees reporting significant effects                                        A                 47                   19.1                    -
  on administrative processes                                                                 B                 42                   28.6                    -
                                                                                              C                 83                   10.8             5.0–16.7
* Statistics presented for Parts A and B grantees are descriptive population statistics and therefore have no confidence interval.




                        OEI-07-08-00240              THE CORE MEDICAL SERVICES REQUIREMENT             IN THE   R YA N W H I T E P R O G R A M              15
                     A    P     P E N D              I X           ~         A


                           Point Estimates and Confidence Intervals (continued)



                                                                                       Grantee           Sample              Point               95% Confidence
  Statistic Description
                                                                                          Type             Size           Estimate                     Interval*

  Percentage of grantees reporting receiving guidance
                                                                                             All            171                80.9                  74.7–87.0
  on the core medical services requirement

  Percentage of grantees that received guidance
                                                                                             All            141                94.8                  91.6–97.9
  reporting finding the guidance helpful

  Percentage of grantees reporting that the core
                                                                                             All            171                21.4                  15.4–27.4
  medical service definitions are unclear

  Percentage of grantees reporting project officer
                                                                                             All            170                70.5                  64.2–76.9
  turnover

  Percentage of grantees with project officer turnover
                                                                                             All              96               61.7                  51.9–71.5
  reporting that turnover created difficulties

  Percentage of grantees with project officer turnover
  reporting that turnover resulted in need to help                                           All              96               28.0                  19.1–36.8
  project officer understand program

  Percentage of grantees with project officer turnover
  reporting that turnover resulted in experiencing                                           All              96               26.3                  17.5–35.2
  varying project officer expectations

  Percentage of grantees with project officer turnover
  reporting that turnover resulted in lack of consistency                                    All              96               23.4                  15.3–31.5
  in project officer interactions
* Statistics presented for Parts A and B grantees are descriptive population statistics and therefore have no confidence interval.
Source: Office of Inspector General analysis of grantee survey responses, expenditure reports, and allocation reports, 2009.




                         OEI-07-08-00240               THE CORE MEDICAL SERVICES REQUIREMENT               IN THE   R YA N W H I T E P R O G R A M                 16
Δ     A P P E N D I X                                                                    ~          B

    Five Highest-Funded Core Medical Service Categories by Grantee Type



                                                   Proportions of Part A Grantees' 2006 and 2007 Expe nditures and 2008
                                                                               Allocations
             Percentage of Grant Funds




                                         50%
                                         40%                                                                                                                    2006
                                         30%
                                                                                                                                                                2007
                                         20%
                                         10%                                                                                                                    2008
                                          0%

                                                          en
                                                            t             nt                  P                l th              al                   r*
                                                      ati               me                A                  ea                Or                   he
                                                    tp              ag
                                                                      e                AD               lH                                     Ot
                                               O   u              an                               ent a
                                                           s    eM                                M
                                                         Ca
                                                 al
                                            edi c
                                           M
                                                                 Five Highest-Funded Core Medical Service Catagories


      * " Other" inc ludes early interv entio n s erv ic es , prem ium as s is tanc e, ho m e health, nutritio n, ho s pic e, ho m e- and
      c o m m unity-bas ed s erv ic es , and s ubs tanc e abus e.
      So urc e: Offic e o f Ins pec to r General (OIG) analys is o f P art A R yan White gr antees ' expenditures and allo c atio ns .




                                                     Proportions of Part B Grantees' 2006 and 2007 Expenditures and 2008
                                                                                  Allocations
       Percentage of Grant Funds




                                         90%
                                         80%
                                         70%                                                                                                                    2006
                                         60%
                                         50%                                                                                                                    2007
                                         40%                                                                                                                    2008
                                         30%
                                         20%
                                         10%
                                          0%
                                                                              nt              t                                   al
                                                      AP                                   en                 ce                Or                   er*
                                                    AD                  a tie            em               tan                                    Oth
                                                                   Ou
                                                                     t p
                                                                                     ang             s sis
                                                                                    M               A
                                                                                 se               m
                                                                            l Ca           rem iu
                                                                          a               P
                                                                      dic
                                                                   Me
                                                                     Five Highest-Funded Core Medical Service Catagories

     * "Other" includes substance abuse, home health, nutrition, hospice, home- and community-based services, early intervention
     services, and mental health.
     Source: OIG analysis of Part B Ryan White grantees' expenditures and allocations.




OEI-07-08-00240                                                  THE CORE MEDICAL SERVICES REQUIREMENT                IN THE   R YA N W H I T E P R O G R A M          17
             A    P     P E N D                                      I X            ~          B


                   Five Highest-Funded Core Medical Service Categories by Grantee Type
                   (continued)


                                                            Proportions of Part C Grantees' 2006 and 2007 Expenditures and 2008
                                                                                        Allocations
                         Percentage of Grant Funds




                                                     70%
                                                     60%
                                                     50%
                                                     40%                                                                                                                2006
                                                     30%                                                                                                                2007
                                                     20%
                                                     10%                                                                                                                2008
                                                      0%
                                                                       t                   s             nt       l
                                                                                                                                  al th               er*
                                                                ti en                  i ce            me     O ra              He                O th
                                                            tpa                 S erv              age                      l
                                                       O u                    n                 Ma
                                                                                                  n                     nt a
                                                                         ntio                                         Me
                                                               t e  rv e                 C as e
                                                             In                     a l
                                                        rl y                    di c
                                                      Ea                    Me
                                                                         Five Highest-Funded Core Medical Service Categories


                      * " Other" inc ludes A D A P , prem ium as s is tanc e, ho m e health, nutritio n, ho s pic e, ho m e- and c o m m unity-bas ed s erv ic es ,
                      and s ubs tanc e abus e.
                      So urc e: OIG analys is o f P art C R yan White grantees ' expenditures and allo c atio ns .




                   Point Estimates and Confidence Intervals Relating to Part C Grantees’
                   Expenditures and Allocations
                                                                                                                                                                                  95%
                                                                                                              Fiscal            Sample                      Point
   Statistic Description                                                                                                                                                   Confidence
                                                                                                               Year               Size                  Estimate
                                                                                                                                                                              Interval
                                                                                                               2006                       72                     57.6       47.6–67.6
   Part C grantees' expenditures on outpatient services                                                        2007                       71                     54.5       47.0–62.1
                                                                                                               2008                       73                     52.9       45.6–60.3
                                                                                                               2006                       72                     21.3       13.8–28.7
   Part C grantees' expenditures on early intervention
                                                                                                               2007                       71                     22.8       14.9–30.6
   services
                                                                                                               2008                       73                     22.4       14.7–30.2
                                                                                                               2006                       72                      9.0        6.6–11.4
   Part C grantees' expenditures on medical case
                                                                                                               2007                       71                      7.9        5.6–10.1
   management
                                                                                                               2008                       73                      8.5        6.4–10.6
                                                                                                               2006                       72                      5.5         3.4–7.6
   Part C grantees' expenditures on oral health services                                                       2007                       71                      5.6         3.6–7.6
                                                                                                               2008                       73                      6.7         4.3–9.1
                                                                                                               2006                       72                      3.5         2.5–4.6
   Part C grantees' expenditures on mental health
                                                                                                               2007                       71                      4.1         2.9–5.2
   services
                                                                                                               2008                       73                      4.5         3.0–6.0
                                                                                                               2006                       72                      5.6         3.9–7.3
   Part C grantees' expenditures on all other core
                                                                                                               2007                       71                      5.2         3.7–6.7
   medical services
                                                                                                               2008                       73                      4.9         3.5–6.4
Source: OIG analysis of Part C Ryan White grantees' expenditures and allocations, 2009.


                 OEI-07-08-00240                                       THE CORE MEDICAL SERVICES REQUIREMENT          IN THE    R YA N W H I T E P R O G R A M                    18
   Δ            A P P E N D I X                                  ~         C


                Grantee Ratings of the Difficulty of Implementing the Core Medical Services
                Requirement
                              We asked grantees to rate the difficulty they experienced in
                              implementing the core medical services requirement on a scale from
                              1 to 5, with 1 being the easiest and 5 being the most difficult. The chart
                              below illustrates how each type of grantee responded.

                                  Ryan White Grantees' Rating of the Difficulty of Implementing
                                            the Core Medical Services Requirement

                                 50
                                 40                                                                                         1
                 Percentage of
                   Grantees




                                 30                                                                                         2

                                 20                                                                                         3

                                 10                                                                                         4

                                 0                                                                                          5
                                           A                         B                         C
                                                            Grantee Type

              So urc e: Offic e o f Ins pec to r General (OIG) analysis o f grantee res po ns es, 2009.




                Point Estimates and Confidence Intervals Relating to Part C Grantees’ Ratings of
                Difficulty
                                                                                                                                                              95%
                                                                                                Grantee                   Sample               Point
  Statistic Description                                                                                                                                Confidence
                                                                                                  Type                      Size           Estimate
                                                                                                                                                          Interval
                                                                                                                                           1 - 37.3
                                                                                                                                           2 - 21.6
                                                                                                           A                     51        3 - 17.6            -
                                                                                                                                           4 - 19.6
                                                                                                                                           5  - 3.9
                                                                                                                                           1 - 36.4
  Percentages of grantees rating the difficulty of                                                                                         2 - 20.5
  implementing the core medical services requirement                                                       B                     44        3 - 29.5            -
  (1=easy through 5=difficult)                                                                                                              4 - 9.1
                                                                                                                                            5 - 4.5
                                                                                                                                           1 - 47.1    36.9–57.4
                                                                                                                                           2 - 24.3    15.4–33.1
                                                                                                           C                     70        3 - 18.6    10.6–26.6
                                                                                                                                            4 - 8.6     2.8–14.3
                                                                                                                                            5 - 1.4      0.0–3.9
Source: OIG analysis of grantee survey res ponses, 2009.




              OEI-07-08-00240               THE CORE MEDICAL SERVICES REQUIREMENT              IN THE     R YA N W H I T E P R O G R A M               19
    A P PEN D                        x                  D

 Agency Comments



                                                                                           i11l<!i11h f!f!!ic.m:..s, end $~
                                                                                           Mni'llstr.atlofl



                                                  OCT     1 2099




          FROM:         Adminisfrator

          SUBJECt:      oro OTllfi Report: ''The Core MediCllJ SlTI'i.<lCB Rcquin;ment ill thcR~11 White
                        Progr,lml" (OEJ.07.Q8><QQ240)

          This ls in fCSlJQ1111<l to Ole OIG's request fw commcl1(ij em tbe draft roport. "The CORE Medical
          Scrvi«:s.Roquinmlc:nl. in the Ryan White Program" (O~I~7~fI,.OO2Mi). Auaclled atO the Health
          ResCMlrces and S1l:rvicGS Adl11inistrwol]'~ comments.. If you have any quesHcns. please contact
          Patricia A. R~&c in mSA's Office of FalmLl A9Sismncc Management at (30 t) 443·0l70.

                                                                   /S/
                                                        Milry K. Wllkefield, Pn.D., R.N.

          Altachmel1t




OEI·07·08·00240         THE CORE MEDICAL SERVICES REQUIREMENT IN THE RYAN WHITE PROGRAM                                       20
A P PEN               D        x                   D




                     Health Re_ourcu and ~s AdmillJiltrllltlo.o·s Commeots 00 tile OlG Dl'aftRepon ­
                            'VCbe CON M~BI Stlitvku Requlre1lilent III dteR,yo White Program"
                                                           (m(j..OO'·~OO14lJ,



                The ReQh'l1 ResollfCes and. Slmit~ Admini¥tr:amm.hBs ~ the 0(1'1$ dm:ft repon lIIld hl\i$
                the following oommei1lg,



                In poerat lhe ExecWvj,l Sl.IlliUUary,liItmdw:tioo, Mcthodo1Qgy and FlllltilJjlI BectiQn~ ofthe
                report are clear ome) tcebnitally llllCllJrllie. RRSA ~WIl1mr.mtl> witb l~t t<}I'heifullowillj
                specifIc nndinp:

                p, 3 QJGF!pding:

                Almon aD grnnteelioompUell db tile core medlelll ilIrvl~ nqulre1lileotsl fiJ1l.lItee
                expenditures til' COR mdl<Bl servkesehllnged little from 2006-2007.

                RRSA Rem>lID,lU;:
                HRSA OOtlCllfil willi J!IliB filJlding,



                Tbl! (:1;lJI1l Jmlldh::al $tlM'lee requirment idf~ted i$UPport swvillel and adIlllnlBtrnlive
                P~mlS for some grll111ees.




                HRSA coll¢UT$ with this fmding.

                P. 11 QjQ Findi!lJl:

                HRSAgoild:llnfJe WIIS l1elpl'lIl, but pr!JJeet ofllce:r mmover' enAted proal'lim mauage:mem
                diffh:ultWs.


                HRSA ().onoors wi6l d,liS findins, HRSA hllll>1011t a number of experlencedproject t!iffit:el'S In
                ret1entyem,     Ha~. WI.!' Me· :nOM'      1m. tbe proOOli15ol'biring ncw stllff'to fill tbisvoid,




 OE 1-0 7-08-00240          THE CORE MEDICAL SERVICES REQUIREMENT IN THE RYAN WHITE PROGRAM                          21
A   P   P E N D       I X     ~      D




    OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   22
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the Kansas
                  City regional office.

                  Michala Walker served as the lead analyst for this study. Other
                  principal Office of Evaluation and Inspections staff from the Kansas
                  City regional office who contributed to the report include Rae
                  Hutchison, Amber Meurs, Dennis Tharp, and Deborah Walden; central
                  office staff who contributed include Talisha Searcy and Kevin Farber.




OEI-07-08-00240   THE CORE MEDICAL SERVICES REQUIREMENT   IN THE   R YA N W H I T E P R O G R A M   23
